Table of Contents
Return
to the USDOJ/OIG Home Page
INS and Airline Industry Relations
Report Number I-2000-020
September 2000
TABLE OF CONTENTS
EXECUTIVE DIGEST
INTRODUCTION
BACKGROUND
RESULTS OF THE INSPECTION
TRAINING
INS Does Not Evaluate Training Effectiveness
INS Does Not Know How Many Personnel Need Training
INS Does Not Maintain a Centralized Training Schedule
Recommendations on Training
TACTICAL INFORMATION
Most INS Airport Offices Do Not Share Tactical Information
Only Limited Tactical Information Is Shared at the National Level
INS Policy Does Not Address the Sharing of Tactical Information
Recommendations on Tactical Information
COMMUNICATION
User Fee Advisory Committee Is Not Advising the Commissioner
Productive Relationships at JFK, Miami, and LAX Airports
Recommendations on Communication
APPENDIX I:  USER FEE ADVISORY COMMITTEE CHARTER
APPENDIX II:  METHODOLOGY
APPENDIX III: INS RESPONSE TO DRAFT REPORT
APPENDIX IV:    OFFICE OF INSPECTOR GENERAL'S ANALYSIS OF MANAGEMENT'S RESPONSE